No.

lfn tbt �uprtmt Qtourt of tbt llnittb �tatts
UKRAINE,
PETITIONER,
V.

PAO TATNEFT, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Maria Kostytska, counsel of rec­
ord for Petitioner and a member of the bar of this Court, certify that the petition for
certiorari contains 6,454 words, excluding the parts that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 8, 2019.

Maria Kostytska

